No.

In The
Supreme Court of the United States
__________
76 ORINDA,
Petitioner,
v.
FRANCISCA MORALEZ,
Respondent.
__________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
__________

PETITION FOR A WRIT OF CERTIORARI

Andrew W. Shalaby
Supreme Ct. No. 262436
7525 Leviston Avenue
El Cerrito, CA 94530
Tel. 510-551-8500,
andrew@eastbaylaw.com
Attorney for Petitioner

i
QUESTIONS PRESENTED FOR REVIEW
Definition: “ADA” refers to the Americans with
Disabilities Act of 1990, 42 U.S.C. § 12101 et seq.
1. Should the Supreme Court adopt, as a
national standard, Chapman v. Pier 1 Imports (U.S.)
Inc., 631 F.3d 939, 944 (9th Cir. 2011), to balance the
need to deter abusive serial ADA filings with the need
to afford relief to legitimate ADA claimants, by
requiring the ADA plaintiff to plead and prove
standing for each ADA non-compliance item alleged, as
a condition for recovery of attorney's fees and costs?
2. Does a ADA defendant’s stipulation to fix
certain ADA non-compliance items preclude it from
seeking Rule 11 sanctions against a serial ADA
plaintiff for false assertions pleaded on her complaint?
3. Does the Court of Appeals lose jurisdiction to
entertain a post-mandate motion for attorney’s fees
brought under Ninth Circuit Court of Appeals, Circuit
Rule 39-1.6?
4. Is Ninth Circuit Court of Appeals, Circuit
Rule 39-1.6, unconstitutional because it authorizes the
Court of Appeals to decide post-appeal fee motions,
thereby depriving parties of their right to appellate
review?

ii

PARTIES TO THE PROCEEDING
1.

76 Orinda, Petitioner;

2.

Francisca Moralez, Respondent.
CORPORATE DISCLOSURE STATEMENT

Petitioner, 76 Orinda, aka Orinda Gas Station,
Inc., is a California corporation, has no parent
corporation, and is not publicly held. The Chief
Executive Officer is Ms. Sadia Iqbal. The secretary,
Chief Financial Officer, and Director is Ms. Bushra
Begum.

STATEMENT OF RELATED CASES
There are no proceedings in other courts that
are directly related to this case.

iii
TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . ii
STATEMENT OF RELATED CASES. . . . . . . . . . . ii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . 2
1. Court of Appeals’ Amended Opinion
Affirming the District Court . . . . . . . . . . . 2
2. District Court’s $164,257.27 Attorney’s Fee
and Costs Award. . . . . . . . . . . . . . . . . . . . 2
3. District Court’s Oral Opinions . . . . . . . . . 2
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATUTORY PROVISIONS INVOLVED . . . . . . . 4
1.
United States Constitution, Art. III,
Section 2, Clause 1 (Standing) . . . . . . 4
2.
42 United States Code section 12205. 4
3.
Federal Rule of Appellate Procedure 41(c)
............................... 4
4.
Ninth Circuit Court of Appeals, Circuit
Rule 39-1.6: . . . . . . . . . . . . . . . . . . . . . 5
5.
United States Constitution,
Amendment 14 . . . . . . . . . . . . . . . . . . 5
6.
Federal Rule of Civil Procedure 11 . . 5

iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 6
1. Nature of Action and Jurisdiction . . . . . . 6
2. Plaintiff is a Serial Filer, having Filed More
Than 200 ADA Suits. . . . . . . . . . . . . . . . . 6
3. Initial Complaint Raising 7 Arguably
Meritorious Claims. . . . . . . . . . . . . . . . . . 7
4. Amended Complaint Asserting 34 Additional
Non-meritorious ADA claims . . . . . . . . . . 7
5. Settlement of Injunctive Relief Portion of the
Suit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
6. Order Awarding $164,257.27 in Statutory
Fees and Costs . . . . . . . . . . . . . . . . . . . . . 8
7. Court’s Explanation for the High Award. 9
8. The Disagreement Between the Court and
Defendants about the Requirement to
Establish Standing After Resolving the
Injunctive Relief Portion of the Suit . . . 14
9. The Court’s Erroneous Belief Regarding Settlement
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
10. The Court of Appeals Affirmed the District
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
11. Petition for Rehearing on Issue of Standing
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
(A) Error on October 16, 2020 Decision
[34-1 p.3] . . . . . . . . . . . . . . . . . . . . . . 23
(B) Correction on Amended Opinion 23
REASONS FOR ALLOWANCE OF THE WRIT. . 24
I.

SERIAL NON-MERITORIOUS ADA FILINGS
HAVE BECOME A NATIONAL PROBLEM
WHICH THE UNITED STATES SUPREME
COURT SHOULD NOW REMEDY. . . . . . . . 24

v
New York . . . . . . . . . . . . . . . . . . . . . . . .
Florida. . . . . . . . . . . . . . . . . . . . . . . . . . .
Arizona . . . . . . . . . . . . . . . . . . . . . . . . . .
Texas . . . . . . . . . . . . . . . . . . . . . . . . . . . .
California (re Same Plaintiff Moralez) .
California (re Attorney, Tanya Moore) .

24
26
28
30
31
32

II.

ADOPTING CHAPMAN AS A NATIONAL
STANDARD WILL RESOLVE THE PROBLEM
BY REQUIRING ADA CLAIMANTS TO
ESTABLISH STANDING FOR EACH CLAIM
ASSERTED . . . . . . . . . . . . . . . . . . . . . . . . . 34

III.

IMPOSING SANCTIONS FOR ASSERTION OF
NON-MERITORIOUS ADA CLAIMS EVEN
AFTER RESOLUTION OF THE INJUNCTIVE
RELIEF PORTION OF THE LAWSUIT . . 37

IV.

CERTIORARI SHOULD BE GRANTED TO
DETERMINE IF NINTH CIRCUIT RULE 391.6 IS INVALID DUE TO EARLIER
ISSUANCE OF THE MANDATE . . . . . . . . 39

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

///

///

vi
APPENDICES
Appendix A: Opinion, Amended, Ninth Circuit Court
of Appeals, Affirming District Court’s Order,
November 24, 2020. . . . . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B: Order, Amended, United States District
Court for the Northern District of California,
Awarding Fees to Plaintiff, November 6, 2019 . . . 5a
Appendix C: Oral Opinions, by Court Transcript,
United States District Court for the Northern District
of California, Hearing, September 11, 2019 . . . . . 8a
Appendix D: Order, Ninth Circuit Court of Appeals,
Amending Memorandum of Decision Filed October 16,
2020, and Denying Petitioner 76 Orinda’s Petition for
Rehearing, November 24, 2020 . . . . . . . . . . . . . . 19a

///

///

///

vii
TABLE OF AUTHORITIES
Cases
Adams v. 724 Franklin Ave. Corp., 2016 U.S. Dist.
LEXIS 180432
. . . . . . . . . . . . . . . . . . . . . . . . 24
Barrios v. Cal. Interscholastic Fed'n, 277 F.3d 1128
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Bolker v. Comm'r of Internal Revenue, 760 F.2d 1039
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Cankat v. 41st Avenue Rest. Corp., 15-cv-4963 . . . 24
Chapman v. Pier 1 Imports (U.S.) Inc., 631 F.3d 939
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 35
Civil Rights Educ. & Enforcement Ctr. v. Hosp.
Properties Trust, 867 F.3d 1093. . . . . . . . . . . . . . . 28
Deutsch v. Henry, A-15-CV-490-LY-ML . . . . . . . . 25
Francisca Moralez v. 76 Orinda, et al., No. 17-cv03779-VC . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 7, 10
Franklin v. Kaypro Corp., 884 F.2d 1222 . . . . . . . 29
Gilkerson v. Chasewood Bank, 1 F. Supp. 3d 570
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Johnson v. Ocaris Mgmt. Group, 2019 U.S. Dist.
LEXIS 144773
. . . . . . . . . . . . . . . . . . . . . 26, 38

viii
Martinez v. Longs Drug Stores, Inc., No.
CIV-S-03-1843 DFL CMK . . . . . . . . . . . . . . . . . . . 36
Molski v. Mandarin Touch Rest., 347 F. Supp. 2d 860
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Moralez v. Boutique Hotel Company-Beverly Hills,
LLC, 2:2021-cv-00738 . . . . . . . . . . . . . . . . . . . . 6, 31
Moralez v. Lowe’s Home Centers. 4:2021-cv-01204

6

Nat'l Alliance for Accessibility, Inc. v. Big Lots Stores,
Inc., No. 11-cv-941 . . . . . . . . . . . . . . . . . . . . . . . . . 25
Perkins v. Standard Oil Co., 399 U.S. 222 . . . . . . 41
Rodriguez v. Investco, L.L.C.,305 F.Supp. 2d 1278 25
Saniefar v. Ronald D. Moore, Tanya E. Moore, et al.,
1:17-cv-00823-LJO-BAM . . . . . . . . . . . . . . . . . . . . 32
Shariff v. Beach 90th St. Realty Corp., No. 11 Civ.
2551 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Steven Brother v. Tiger Partner, LLC, 331 F. Supp. 2d
1368. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Strojnik v. Driftwood Hospitality Mgmt. LLC, 2021
U.S. Dist. LEXIS 1720 . . . . . . . . . . . . . . . . . . . . . . 28
Taylor v. 312 Grand St., No.15-cv-5410 . . . . . . . . 25
White v. Sutherland, No. CIV S-03-2080. . . . . . . . 25

ix
FEDERAL STATUTES AND RULES
28 U.S.C. section 1254(1) . . . . . . . . . . . . . . . . . . . . . 3
28 United States Code section 1331 . . . . . . . . . . 4, 6
28 United States Code section 1343 . . . . . . . . . . 4, 6
28 United States Code section 1367 . . . . . . . . . . . . 6
42 United States Code section 12101 . . . . . i, 4, 6, 26
42 United States Code section 12205 . . . . . . . . . . . 4
Federal Rule of Appellate Procedure 41(b) . . . . . . 39
Federal Rule of Appellate Procedure 41(c) . . . . . . . 4
Federal Rule of Civil Procedure 11 . . . . . . . . . . 7, 15
Federal Rule of Civil Procedure 11(b)(3) . . . . . . . . . 5
Federal Rule of Civil Procedure 12(b)(1) . . . . . . . . 36
Federal Rule of Civil Procedure16(c). . . . . . . . . . . 29
///

x
Constitutional Provisions
United States Constitution, Art. III, Section 2, Clause
1 (Standing) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Supreme Court Rules
Supreme Court Rule 13.1. . . . . . . . . . . . . . . . . . . . . 3
United States Supreme Court, 3/19/2020, Order List
589 U.S. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATE STATUTES
Unruh Civil Rights Act (CA Civ. Code § 51) . . . . . 38

1

In The
Supreme Court of the United States
__________
76 ORINDA,
Petitioner,
v.
FRANCISCA MORALEZ,
Respondent.
__________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
__________

PETITION FOR A WRIT OF CERTIORARI
__________
Petitioner 76 Orinda respectfully petitions for a
Writ of certiorari to review the Final Opinion of the
Ninth Circuit Court of Appeals.

2
OPINIONS BELOW
1. Court of Appeals’ Amended Opinion Affirming the
District Court
The October 16, 2020 opinion of the United
States Court of Appeals for the Ninth Circuit, as
amended November 24, 2020, affirming the United
States District Court’s order dated November 6, 2019,
granting Plaintiff Francisca Moralez’ motion for
attorney’s fees and costs in the amount of $164,257.27,
is unpublished and reported at 825 Fed.Appx.536, and
is reprinted in the Appendix to this Petition (“App.”),
Appendix A, at App. 1a-4a.
2. District Court’s $164,257.27 Attorney’s Fee and
Costs Award
The November 6, 2019 order of the United
States District Court for the Northern District of
California, awarding $146,806 in attorneys’ fees, and
$17,451.27 in costs, in Francisca Moralez v. 76 Orinda,
et al., No. 17-cv-03779-VC, is reprinted at Appendix B,
at App. 5a-7a.
3. District Court’s Oral Opinions
The relevant portions of the September 11, 2019
Opinions of the United States District Court for the
Northern District of California, in relation to the
hearing on Plaintiff Francisca Moralez’ motion for
attorney’s fees and costs, in Francisca Moralez v. 76

3
Orinda, et al., No. 17-cv-03779-VC, taken from the
Court transcript, are reprinted at Appendix C, at App.
8a-18a.
4. Court of Appeals’ Order Denying Rehearing
The November 24, 2020 order denying rehearing
and amending the opinion of the United States Court
of Appeals for the Ninth Circuit is reprinted at
Appendix D, at App. 19a-20a.
JURISDICTION
The United States Supreme Court has
jurisdiction over the final order from the United States
Court of Appeals pursuant to 28 U.S.C. § 1254(1). The
order of the United States Court of Appeals for the
Ninth Circuit was entered on October 16, 2020 and
amended on November 24, 2020. (App. 1a.) On March
19, 2020 the United States Supreme Court issued an
order (Order List 589 U.S.) extending the time to file
a petition for writ of certiorari to 150 days from the
date of the lower court judgment, order denying
discretionary review, or order denying a timely
petition for rehearing. This petition is timely filed
within 150 days of the date of entry of the order as
required by Supreme Court Rule 13.1, as amended on
March 19, 2020 (Order List 589 U.S.).
The Ninth Circuit Court of Appeals has
jurisdiction over decisions of the U.S. District Courts
pursuant to 28 U.S.C. § 1291.

4
The United States District Court for the
Northern District of California has Federal Question
jurisdiction under 28 U.S.C. § 1331 and 28 U.S.C. §
1343 because the underlying action arises under the
Americans With Disabilities Act (ADA), 42 U.S.C. §
12101 et seq.
STATUTORY PROVISIONS INVOLVED
1.

United States Constitution, Art. III, Section 2,
Clause 1 (Standing):
The judicial Power shall extend to all
Cases, in Law and Equity, arising under
this Constitution, the Laws of the United
States, and Treaties made, or which shall
be made, under their Authority; [...]

2.

42 United States Code section 12205:
In any action or administrative
proceeding commenced pursuant to this
Act, the court or agency, in its discretion,
may allow the prevailing party, other
than the United States, a reasonable
attorney’s fee, including litigation
expenses, and costs, and the United
States shall be liable for the foregoing the
same as a private individual.

3.

Federal Rule of Appellate Procedure 41(c):
(c) Effective Date. The mandate is

5
effective when issued.
4.

Ninth Circuit Court of Appeals, Circuit Rule 391.6:
(a) Time Limits (Rev. 7/1/07)
Absent a statutory provision to the
contrary, a request for attorneys’ fees
shall be filed no later than 14 days after
the expiration of the period within which
a petition for rehearing may be filed,
unless a timely petition for rehearing is
filed. If a timely petition for rehearing is
filed, the request for attorneys fees shall
be filed no later than 14 days after the
Court’s disposition of the petition.

5.

United States Constitution, Amendment 14:
[...]nor shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.

6.

Federal Rule of Civil Procedure 11(b)(3):
(b) Representations to the Court. By
presenting to the court a pleading,
written motion, or other paper--whether
by signing, filing, submitting, or later

6
ad voc at ing i t - - a n at t or ney or
unrepresented party certifies that to the
best of the person's knowledge,
information, and belief, formed after an
inquiry reasonabl e und er the
circumstances:
[...]
(3) the factual contentions have
evidentiary support or, if specifically so
identified, will likely have evidentiary
support after a reasonable opportunity
for further investigation or discovery[;]
STATEMENT OF THE CASE
1. Nature of Action and Jurisdiction
Francisca Moralez (Plaintiff) filed suit under the
Americans with Disabilities Act of 1990, 42 U.S.C. §
12101 et seq. [dkt. 44]. The District Court has original
jurisdiction under 28 U.S.C. § 1331 and 28 U.S.C. § 28
U.S.C. § 1343, and supplemental jurisdiction over the
State law claims under 28 U.S.C. § 1367.
2. Plaintiff is a Serial Filer, having Filed More Than
200 ADA Suits
Plaintiff is a serial ADA filer, having filed in
excess of 200 ADA suits. (See Appeal 19-17241 dkt. 91, bates pp. 379-382, and noting her most recent
filings, Moralez v. Lowe’s Home Centers, LLC, No.
4:2021-cv-01204 (2/18/21), and Moralez v. Boutique

7
Hotel Company-Beverly Hills, LLC, 2:2021-cv-00738
(1/27/21). Her attorney is also a serial filer, having
filed more than 1,500 such suits. (See appeal no. 1917241, dkt. 43 p.12, Declaration of Tanya E. Moore.)
3. Initial Complaint Raising 7 Arguably Meritorious
Claims
Plaintiff’s initial complaint presented seven
arguably meritorious ADA non-compliance items.
(Moralez v. 76 Orinda, et al., No. 3:17-cv-03779-EDL,
dkt. 1, 6/30/17)
4. Amended Complaint Asserting 34 Additional Nonmeritorious ADA claims
Plaintiff amended her complaint, and added 34
new ADA non-compliance items. (Appeal 19-17241
dkt. 9-1, bates 414-416.) Defendants did not believe
the added claims were meritorious, because Plaintiff
failed to plead allegations to show she had standing.
Defendants’ expert informed them that some of the
added items did not exist at all, while others were
within the normal range of acceptable variances.
Moreover, Plaintiff failed to plead that the remaining
items were capable of causing accessibility hardships
based on her type of disability. Plaintiff also presented
a number of untruthful allegations, therefore
Defendants served a safe-harbor motion for sanctions
under Fed. R. Civ.P. 11. (Appeal 19-17241 dkt. 9-1
bates 054-056.)

8
5. Settlement of Injunctive Relief Portion of the Suit
On June 24, 2019 the parties stipulated to
remediation of a limited number of ADA noncompliance items, resolving the injunctive relief
portion of the lawsuit. (Appendix C, p.15a, transcript
p.17:8-19). The Court characterized the stipulation as
a settlement, although the stipulation did not settle
the entire case because Plaintiff’s claims for fees and
costs were to be adjudicated. (Appendix C, p.15a.)
6. Order Awarding $164,257.27 in Statutory Fees and
Costs
On September 11, 2019 the Court heard
Plaintiff’s motion for fees and costs (Appendix C).
Plaintiff moved for:
(A)

$133,798.50 in attorney’s fees for pursuit of the
41 ADA non-compliance items she alleged on
her initial and amended complaints (case 3:17cv-03779-VC, dkt. 121 p.2, Appendix B (order)
at 6a);

(B)

$26,015 in attorney’s fees for 47.3 hours of
“travel” time at $550 per hour (Appendix B
(order) at 6a);

(C)

$15,875.64 in costs related to all 41 of her
alleged ADA non-compliance items (case 3:17cv-03779-VC, dkt. 121 p.2, Appendix B (order)
at 6a); and

9
(D)

$3,141.86 for “hotel” and “food” (Appendix B at
6a)

(See Appeal 19-17241 dkt. 9-1, bates 168, also
supplemental fee motion at dkt. 9.1 bates 395-6, and
fee award at App. B, pp.6a-7a.)
The Court awarded Plaintiff 100% of the fees and costs
she requested for pursuit of all 41 of her alleged ADA
non-compliance items ($133,798.50 fees, $15,875.34
costs). (Appendix B, pp.6a-7a.) In addition, the Court
awarded her $13,007.50 in attorney’s fees for “travel”
time, and $1,575.93 for “food” and “hotel” expenses
(Appendix B, pp.6a-7a). The total award for fees and
costs was for $164,257.27.
7. Court’s Explanation for the High Award
The Court acknowledged that the amount of fees
and costs were quite high for this type of case, but it
was misinformed, therefore it erroneously justified the
award by blaming Defendants’ counsel for an alleged
ill-conceived, intransigent, and inefficient handling of
the case (Appendix B, pp. 5a-6a):
Although the total amount of fees and
costs is quite high for a case of this type,
that is primarily because (as the written
record and the hearing transcripts will
reflect) the defense's approach to the case
was ill-conceived, intransigent, and
inefficient. In addition, defense counsel
appeared to lack the basic legal or

10
procedural knowledge necessary to move
the case to resolution, not to mention
being totally unprepared for trial. All of
this required the plaintiff to incur more
fees and costs than would normally be
expected. It may well be that none of
this is the fault of the defendants
themselves, but neither is it the fault of
the plaintiff or her counsel, and thus
defense counsel's conduct cannot justify
a reduction in the plaintiff's fee award.
In opining that “[I]t may be none of this is the fault of
the defendants themselves,” the Court disregarded
Defendants’ admission that some ADA violations
existed, and admission that $4,000 in statutory
damages were owed (Francisca Moralez v. 76 Orinda,
et al., No. 17-cv-03779-VC, dkt. 45 ¶ 40):
40. Defendants admit that $4,000 in
statutory damages are owed to Plaintiff,
and further, admit that they tendered
same to Plaintiff unconditionally and
before the Court at the last hearing
before this filing.
The Court opined that despite these admissions, the
defendants “should not have to pay a dime of the
attorney’s fees,” but instead, their counsel “should be
the one to pay” the entire amount (Appendix C, p. 10a):
[Transcript p.3:20-24]
I believe that your clients have a

11
malpractice action against you and that
they should not have to pay a dime of the
attorney's fees for the Plaintiff. I think
you should be the one who pays them for
the way you conducted yourself.
The Court further explained its consternation to the
defendants, who were present in the courtroom
(Appendix C, pp. 10a-11a):
[Transcript p.2:19-20]
THE COURT: Okay. I am glad that your
clients are here.
[Transcript p.3:6-24]
THE COURT: And it seems that the only
reason that, as far as I can tell from
everything I experienced and everything
I have read in connection with this fee
motion, it seems that the only reason this
case did not get resolved quickly, and the
only reason why the Plaintiff racked up
so many attorney's fees is defense
counsel's incompetence. And I believe
that the -- your clients very likely have a
malpractice against you. One question I
have is whether I could require you to
pay the attorney's fees as a sanction for
your conduct, instead of your clients. But
I suspect that I don't have the authority
to do that, unfortunately. But I do think
that it is very likely -- I mean I'm likely
to report you to the California Bar

12
Association for the way you conducted
this case and I believe that your clients
have a malpractice action against you
and that they should not have to pay a
dime of the attorney's fees for the
Plaintiff. I think you should be the one
who pays them for the way you conducted
yourself.
[Transcript p.10:2-6]
THE COURT: Oh I think there's very
little doubt that you have committed
malpractice here, yes. I mean the -merely making the Rule 68 offer that you
made, and refusing to agree to a
judgment that included injunctive relief,
in itself that's probably malpractice.1
The Court was primarily troubled by the defense
counsel’s belief that Plaintiff was required to prove
standing for each ADA non-compliance item for which
she claimed statutory fees and costs, despite the fact
that the parties stipulated to resolving the injunctive
relief portion of the suit (appendix C, p.15a):

1

The Court was not aware that the reason Defendants’
settlement (“Rule 68") offer did not include a provision
for injunctive relief was because their expert advised
them that all of the non-compliance items capable of
affecting the plaintiff had already been remediated.

13
[Transcript p.17:8-19]
THE COURT: So your -- your main
point, as it relates -- I mean on one level,
it kind of sounds like you're arguing that
your client should not have been held
liable, but of course you've entered a
settlement agreement and you've agreed
that the Plaintiff is the prevailing party.
So we're not -- we're not here to
re-litigate the merits of the case, but
what you -- if I understand you correctly,
what you're saying is that the Plaintiff
grossly overreached in the lawsuit and
made allegations that, even if some of the
allegations had merit, made a number of
allegations that lacked merit and to that
extent, should not be permitted to
recover attorney's fees?
The Court found Defendants’ argument troubling
because Defendants agreed that because some of the
non-compliance items asserted by Plaintiff had merit
(7 out of 41), this defined her as the “prevailing party.”
The Court interpreted her “prevailing party” status to
mean that she was not required to prove standing to
recover attorney’s fees and costs for the ADA noncompliance items she withdrew, and for which she
failed to prove she had standing to pursue in the first
instance.
///

14
8.
The Disagreement Between the Court and
Defendants about the Requirement to Establish
Standing After Resolving the Injunctive Relief Portion
of the Suit
Defendants and the Court had a difference of
opinion regarding whether the plaintiff was required
to establish standing for every ADA non-compliance
item for which she sought recovery of fees and costs.
Defendants pointed out that most of Plaintiff’s 41
alleged ADA non-compliance items were without merit
(7 arguably meritorious, 34 non-meritorious). Only
about 17% (17/41) of Plaintiff’s ADA non-compliance
items were meritorious. While this was sufficient to
define her as the “prevailing party,” in Defendants’
view, this did not mean she was entitled to attorney’s
fees and costs on the non-meritorious (83%) ADA noncompliance items, many which she withdrew prior to
settlement, and some which she had no standing to
pursue in the first instance.
The Court disagreed, finding that because the
parties resolved the injunctive relief portion of the suit
by stipulation, this amounted to a settlement that
precluded the defendants from being able to challenge
Plaintiff’s claim for fees on the ADA non-compliance
items she withdrew, and on the ADA non-compliance
items which she did not have standing to pursue in the
first instance. The same discord arose in relation to a
Rule 11 motion for sanctions Defendants had served in
relation to the Amended Complaint, an action which
befuddled the Court (Appendix C, p.18a):

15
[Transcript p.18:12-p.19:5]
THE COURT: But here's -- here's what
I don't understand. Speaking of your
Rule 11 motion, you know, I'm looking at
this meet and confer letter that you sent
to the Plaintiff in connection with the
attorney's fees motion, and you state that
you're renewing your Rule 11 motion
against the Plaintiff and you say in that,
"To date no declaration or evidence of any
kind exists in the record to show that Ms.
Moralez experienced the ADA barriers
and was visiting the facility in good faith,
rather than as a business venture aimed
at earning income.” But you already
reached a settlement agreement in the
case and agreed that she was the
prevailing party.
And now you're
threatening to sanction to her? You're
threatening to file a sanctions motion
against her for filing a lawsuit that
you've already agreed she was the
prevailing party in. I mean this is one of
the most bizarre things I have seen in my
five years on the bench.
Defendants’ counsel explained that the status of
Plaintiff as the “prevailing party” did not mean that
she was insulated from the reach of Rule 11 sanctions
for the many false ADA non-compliance items and
other false allegations presented on her complaint
(appendix C, pp. 11a-12a):

16
[Transcript p.13:1 to p.14:16]
MR. SHALABY: They came into this
courtroom on June 24th. A very large
amount of money was spent on replacing
those gas pumps, and you remember Mr.
Best stood right there and he told you
they were still not in compliance. It’s on
the transcript. We only got one of two
sessions on the transcript. It’s in the
morning transcript. And then you heard
what you did. You said, "Mr. Shalaby,
this is your fault. Have you ever done a
trial before? It looks like you've never
done a trial before and this is all of your
fault." And now you're doing the same
thing.
And then we went back to the room and
after he [Mr. Best] made a comment that
he's going to be very careful, he came
back in here and now it's like, "Oh, guess
what? The pumps are fine. There's no
violation, there's nothing wrong with
these pumps." Same with the cutoff
switch and so many other items.
"Nothing wrong with the cutoff switch."
[Quotations added.] A person in a
wheelchair doesn't get to cutoff the fuel
pumps. He [Mr. Best] puts it on there.
He pleads it on his complaint. He says
"injunctive relief" [quotations added] -they're entitled to injunctive relief on it.
He's billed attorney's fees for it. They're

17
not entitled to that. They're not entitled
to many many items.
"Floor clearance adjacent to public
telephone contains excessive slopes."
And then when we come back [from
settlement conference room], "Oh no,
they've repaired it." It never had it in
the first place.
"Restroom door closes too quickly."
And then when they come back [from the
conference room], "Withdrawn."
"Restroom door closing mechanism
requires tight grasping." They come back
[from the conference room], "They fixed it
and we're waiving that."
"Plumbing beneath restroom sink not
insulated."
They come back [from
conference room], they waived that.
Defendants’ counsel further explained that Plaintiff’s
“prevailing party” status did not mean she could no
longer be sanctioned for violating Rule 11(b)(3), the
mandate for truthfulness (Appendix C, p.17a):
[Transcript p.20:5-7]
MR. SHALABY: Rule 11 mandates
truthfulness. It's not dependent on
whether you're a prevailing party or not,
at all. It mandates truthfulness.

18
[Transcript p.20:20-21:16]
MR. SHALABY: You have a meet and
confer, you have an agreement she's a
prevailing party on the Unruh Act, which
makes her a prevailing party in the
action. It certainly does not make her a
prevailing party on the gas pumps when
they say those gas pumps are out of
compliance and those need to be removed
and redone again.
She can't be a
prevailing party on every item. She's not
a prevailing party on every item. She's a
prevailing party on the Unruh Claim,
which makes her a prevailing party in
the action.
I gave the Court the
authority on that from the Ninth Circuit.
And so for somebody to come into your
courtroom, your Honor, and say, "Hey,
you know, about these pumps, they've
been put up for a couple hundred
thousand dollars or something and they
don't comply." And they do comply. It's
a Rule 11 violation and if you give
somebody a Rule 11 motion saying,
"Come on, this is not the truth, you've got
21 days to retract it, and if you don't then
I'm entitled to sanctions against you."
And if they don't retract it within 21 days
and they've got to plead it on a
complaint, for example, then yes, there's
an entitlement to Rule 11 sanctions.
There's no question about it. Even if
they are the prevailing parties of the

19
action.
The Court understood the point urged by Defendants’
counsel, but believed that the only way Defendants
could challenge Plaintiff’s non-meritorious claims was
not to have stipulated to resolving the injunctive relief
portion of the suit, but instead, to have gone to trial
(Appendix C, pp. 18a):
[Transcript p.22:15-17]
THE COURT: It sounds like -- if you
think the allegations were untrue, then it
sounds like you should have gone to trial
instead of settled.
Defendants’ counsel brought to the Court’s attention
that it’s earlier statements were too indicative of the
likelihood that they would lose the case at trial by way
of judicial prejudice, even though the merits were in
their favor (Appendix C, pp. 18a):
[Transcript p.22:18-19]
MR. SHALABY: That would have been
suicide after the -- the statements made
by the Court.
The Court’s response re-affirmed that Defendants
would not likely have been able to prevail at trial
because of the Court’s repeated misinformed
accusation that Defendants’ counsel was incompetent
(Appendix C, pp. 18a)

20
[Transcript p.22:20-25]
THE COURT: Oh I don't think so. I
would not have held the incompetence of
their lawyer against them. I mean I
would not hold against the Defendants
the incompetence of their lawyer. I mean
that happens all of the time in
courtrooms all across America. The
judges make sure not to hold it against
the client that their lawyer is
incompetent.
The Court spoke in haste because it did not have
sufficient command of the facts upon which it based
it’s belief that Defendants’ counsel was incompetent.
9. The Court’s Erroneous Belief Regarding Settlement
The main reason the Court believed that
Defendants’ counsel was incompetent was because he
communicated Defendants’ settlement offer (“Rule 68"
offer), and their offer did not include a provision for
injunctive relief. The Court was not aware of the
underlying facts. The Court scheduled two settlement
conferences with the Honorable Magistrate Judge
Thomas Hixson.
The settlement efforts were
unsuccessful, but followed by a Rule 68 offer to
compromise presented by Defendants’ counsel. The
Court was not aware of what transpired in the
settlement conferences because settlement discussions
were statutorily confidential. (See Federal Rule of
Evidence 408.)
The Court therefore presumed,
incorrectly, that because there was no injunctive relief

21
provision on the Rule 68 offer to compromise, this
meant that Defendants’ counsel committed
malpractice (Appendix C, p.11a):
[Transcript p.10:2-6]
THE COURT: Oh I think there's very
little doubt that you have committed
malpractice here, yes. I mean the -merely making the Rule 68 offer that you
made, and refusing to agree to a
judgment that included injunctive relief,
in itself that's probably malpractice.
The Court was not aware that the reason the Rule 68
offer did not include injunctive relief provisions was
because Defendants’ ADA inspector advised the
parties at the settlement conference that the ADA noncompliance items applicable to Plaintiff had already
been remediated.
10. The Court of Appeals Affirmed the District Court
On October 16, 2020 the Court of Appeals
affirmed the District Court’s order, finding that a
plaintiff is not required to provide additional evidence
“proving her claims” following settlement of the
injunctive relief portion of the lawsuit, as a condition
for recovery of attorney’s fees for every ADA noncompliance items asserted, whether those items were
withdrawn before “settlement,” or whether she failed
to prove she had standing in the first instance to
pursue those items (Appendix A, p.3a):

22
Contrary to 76 Orinda's contention, a
plaintiff is not required to provide
additional evidence proving her claims,
following settlement, to obtain attorney's
fees.
11. Petition for Rehearing on Issue of Standing
Defendants moved for rehearing on the question
of standing (appeal 19-17241 dkt. 39 p.6):
The plaintiff did not have standing to sue
for ADA barriers which either did not
apply to her based on her type of
disability, or which were not capable of
causing any accessibility hardships for
her. The fact that she was deemed,
generally, the "prevailing party" in the
action, does not mean that she is entitled
to an award of attorney's fees for pursuit
of such barriers which did not apply to
her.
12. Amendment to the Appellate Decision
On November 24, 2020 the Court of Appeals
denied the petition for rehearing, but amended it’s
decision (Appendix D, p.20a):
The panel has voted to amend the
memorandum disposition filed in this
case on October 16, 2020. The amended
memorandum disposition is attached

23
hereto.
The amendment was as follows:
(A) Error on October 16, 2020 Decision [34-1 p.3]
Finally, the district court did not err in
failing to reconcile ADA case law with
California Senate Bill 269. Subject to
exceptions that do not apply here, we will
not consider an issue raised for the first
time on appeal. See Bolker v. Comm'r of
Internal Revenue, 760 F.2d 1039, 1042
(9th Cir. 1985). Moralez waived this
issue by failing to raise the argument
below. [Emphasis added.]
(B) Correction on Amended Opinion
Finally, the district court did not err in
failing to reconcile ADA case law with
California Senate Bill 269. Subject to
exceptions that do not apply here, we will
not consider an issue raised for the first
time on appeal. See Bolker v. Comm'r of
Internal Revenue, 760 F.2d 1039, 1042
(9th Cir. 1985). 76 Orinda waived this
issue by failing to raise the argument
below. [Emphasis added.][Appendix D
p.4a]
This Petition for a Writ of Certiorari now follows.

24
REASONS FOR ALLOWANCE OF THE WRIT
I. SERIAL NON-MERITORIOUS ADA FILINGS
HAVE BECOME A NATIONAL PROBLEM WHICH
THE UNITED STATES SUPREME COURT SHOULD
NOW REMEDY
The grant of Certiorari is requested to remedy
a very serious national problem, best explained by the
Federal Courts from coast to coast.
New York
The Honorable Brian M. Cogan, explains that
judges around the country question whether the ADA
has become a vehicle of abuse by plaintiff’s attorneys.
Adams v. 724 Franklin Ave. Corp., 2016 U.S. Dist.
LEXIS 180432, 3-4, 2016 WL 7495804:
It is true that not only the undersigned,
but other judges in this district, and
indeed judges around the country, have
questioned whether the ADA in some
instances has become a vehicle of abuse
by certain plaintiff's attorneys who have
created a cottage industry by bringing
multiple cases against small businesses
on behalf of the same plaintiff when that
plaintiff has no genuine intention of
using the services of so many businesses.
See Cankat v. 41st Avenue Rest. Corp.,
No. 15-cv-4963, 2016 U.S. Dist. LEXIS
171406, 2016 WL 7217638 (E.D.N.Y. Dec.

25
12, 2016) (Johnson, J.); Deutsch v. Henry,
A-15-CV-490-LY-ML, et al., 2016 U.S.
Dist. LEXIS 168987, 2016 WL 7165993
(W.D. Tex. Dec. 7, 2016); Taylor v. 312
Grand St., No.15-cv-5410, 2016 U.S. Dist.
LEXIS 36623, 2016 WL 1122027
(E.D.N.Y. March 22, 2016) (Cogan, J.);
Shariff v. Beach 90th St. Realty Corp.,
No. 11 Civ. 2551, 2013 U.S. Dist. LEXIS
179255, 2013 WL 6835157 (E.D.N.Y. Dec.
20, 2013) (Bloom, M.J.); Nat'l Alliance for
Accessibility, Inc. v. Big Lots Stores, Inc.,
No. 11-cv-941, 2012 U.S. Dist. LEXIS
58200, 2012 WL 1440226 (M.D.N.C. April
26, 2012); White v. Sutherland, No. CIV
S-03-2080, 2005 U.S. Dist. LEXIS 40713,
2005 WL 1366487 (E.D. Cal. May 6,
2005); Rodriguez v. Investco, L.L.C., 305
F. Supp. 2d 1278 (M.D. Fla. 2004); Steven
Brother v. Tiger Partner, LLC, 331 F.
Supp. 2d 1368 (M.D. Fla. 2004); Molski v.
Mandarin Touch Rest., 347 F. Supp. 2d
860 (C.D. Cal. 2004); see also Caitlin
Nolan and John Marzulli, Disabled
Queens man sues at least 20 momand-pop businesses over 'architectural
barriers' preventing wheelchair access,
New York Daily News (April 28, 2015),
http://www.nydailynews.com/new-york/
queens/disabled-queens-man-sues-20-b
usinessesbarriers-article-1.2201545;
Alison Stateman, Lawsuits by the
Disabled: Abuse of the System?, Time

26
Magazine (Dec. 29, 2008), http://[-]
content.time.com/time/nation/article/0,8
599,1866666,00.html.
Florida
The Honorable Judge Paul C. Huck observed the
illicit joint enterprise between the serial ADA plaintiff
and his counsel, and their abusive billing practices, in
Johnson v. Ocaris Mgmt. Group, 2019 U.S. Dist.
LEXIS 144773, *1-2
Twenty-nine years ago, Congress passed
the Americans with Disabilities Act
("ADA") in an effort to remove and
prevent barriers for the disabled. See
generally 42 U.S.C. § 12101, et seq. The
statute authorizes parties to file lawsuits
against those who violate the ADA in
order to benefit the disabled whom the
ADA serves to protect. Id. Lawyers who
champion these cases are granted
reasonable attorney's fees for advancing
Congress's laudable goal of protecting the
disabled community. Id. This is not one
of those cases. This case reveals an illicit
joint enterprise between Plaintiff,
Alexander Johnson, and his attorney,
Scott R. Dinin of Scott R. Dinin P.A., to
dishonestly line their pockets with
attorney's fees from hapless defendants
under the sanctimonious guise of serving
the interests of the disabled community.

27
Through this illicit joint enterprise,
Johnson and Dinin filed numerous
frivolous claims, knowingly misrepresented the billable time expended to
litigate these claims, made numerous
other misrepresentations to the Court,
and improperly shared attorney's fees in
violation of the Rules Regulating the
Florida Bar, all done without regard to
the interests of those with disabilities.
Judge Huck imposed a remedy very different from the
one fashioned by the District Court on this case. He
articulated the abuse of process, dismissed the cases
with prejudice, and retained jurisdiction to impose
sanctions:
B. Systemic Inflated Billing
The Court finds that in both Ocaris and
Caraf, as well as in other ADA cases,
Dinin egregiously inflated his attorney's
fees claims by overbilling for simple,
repetitive tasks and by billing for work
which he did not perform. (Id. at 9.)
[...]
For the reasons set forth above, both
Ocaris and Caraf are DISMISSED WITH
PREJUDICE. The Court retains
jurisdiction to enforce the sanctions
against Johnson and Dinin. The cases are
CLOSED and all pending motions are

28
denied as moot. The clerk is ordered to
provide a copy of this order, the show
cause order (Ocaris, [ECF No. 36]), and
the transcripts for the May 9, 2019
(Ocaris, [ECF No. 35]) and July 22, 2019
(Ocaris, [ECF No. 78]) hearings to the
Florida Bar and to the Ad Hoc
Committee on Attorney Admissions, Peer
Review and Attorney Grievance. (Id. at
30.)
Arizona
The Honorable Diane J. Humetewa provides
insight on the characterization of a vexatious ADA
litigant in Strojnik v. Driftwood Hospitality Mgmt.
LLC, 2021 U.S. Dist. LEXIS 1720, *5-7, 2021 WL
50456:
In practice, these serial litigants come in
different forms. Some, ADA "testers," go
about intentionally looking for ADA
violations to remedy through litigation, a
prerogative that gives these litigants
legal standing in court. See Civil Rights
Educ. & Enforcement Ctr. v. Hosp.
Properties Trust, 867 F.3d 1093, 1102
(9th Cir. 2017) (holding that a plaintiff's
status as an ADA tester does not deprive
him or her of standing to bring a claim).
Others, however, are vexatious serial
litigants whose claims frustrate the
ADA's central purpose.

29
These vexatious ADA litigants are
characterized by "[f]alse or grossly
exaggerated claims of injury, especially
when made with the intent to coerce
settlement . . . ." Evergreen, 500 F.3d at
1062 (emphasis added). No legal barrier
prevents parties from settling ADA cases.
And generally, federal courts encourage
settlement before trial. Franklin v.
Kaypro Corp., 884 F.2d 1222, 1225 (9th
Cir. 1989). "Since it obviously eases
crowded court dockets and results in
savings to the litigants and the judicial
system, settlement should be facilitated
at as early a stage of the litigation as
possible." Fed. R. Civ. P. 16(c) advisory
committee's note to 1983 amendment.
Indeed, ADA plaintiffs may also prefer
settlement to trial because, in a
settlement agreement, plaintiffs may
receive a monetary award and their
attorneys may still receive an award of
attorney's fees. See e.g., Barrios v. Cal.
Interscholastic Fed'n, 277 F.3d 1128,
1137 (9th Cir. 2002) (holding that a
plaintiff's attorney could receive an
award of fees after the settlement of a
case, which included an ADA claim,
awarded $10,000 for the plaintiff). Put
another way, serial ADA plaintiffs
themselves face a strong financial
incentive to avoid trial, possibly forgoing
injunctive relief and failing to vindicate

30
the rights of the disabled as a whole.
Texas
The Honorable Melinda Harmon pointed out
that the abusive ADA filings proliferating around the
country have lead to a wide and varied spectrum of
judicial decisions addressing complex issues of, and
policies regarding, standing. Gilkerson v. Chasewood
Bank, 1 F. Supp. 3d 570, 573-575, 2014 U.S. Dist.
LEXIS 25849, *5-7:
This case is one of many controversial
putative class actions proliferating
around the country brought often without
notice by disabled individuals, who,
frequently along with an organization
dedicated to the rights of the disabled,
are "serial plaintiffs" or "testers" acting
as private attorneys general challenging
various entities' noncompliance in their
places of public accommodation with
Title III of the ADA, leading to a wide
and varied spectrum of judicial decisions
addressing complex issues of, and policies
regarding, standing. Because the statute
does not authorize an award of damages
to a prevailing plaintiff, but only
equitable relief and an award of
attorneys' fees, concerns about abusive
litigation by plaintiffs' lawyers must be
balanced against widespread
noncompliance with the ADA and

31
inadequate enforcement of the civil rights
of individuals with disabilities. See, e.g.,
Leslie Lee, Giving Disabled Testers Access
to Federal Courts: Why Standing
Doctrine Is Not the Right Solution to
Abusive ADA Litigation Note, 19 Va. J.
Soc. Pol'y & L. 319 (Winter 2011); Kelly
Johnson, Testers Standing Up For Title
III of the ADA, 29 Case W. Res. L. Rev.
683 (Spring 2009); Wayne C. Arnold and
Lisa Herzog, How Many Lawsuits Does It
Take to Declare an ADA Plaintiff
Vexatious? Apparently More Than Judge
Rafeedie Thought," 48-JUL Orange
County Law. 50 (July 2006); Samuel R.
Bagenstos, The Perversity of Limited
Civil Rights Remedies: The Case of
"Abusive" ADA Litigation, 54 UCLA L.
Rev. 1 (Oct. 2006); and Carrie Becker,
Private Enforcement of the Americans
With Disabilities Act Via Serial
Litigation: Abusive or Commendable?, 17
Hastings Women's L.J. 93 (2006).
California (re Same Plaintiff Moralez)
In the most recent case filed by Respondent
Francisca Moralez, Moralez v. Boutique Hotel
Company - Beverly Hills, No. 2:21-cv-00738-MCS
(Central Dist. CA), the Honorable Stephen M. Kerr
stated his observations (dkt. 10):
The Court presides over many cases

32
under the Americans with Disabilities
Act ("ADA") involving physical barriers
in places of public accommodation. Most
of these cases are brought by a small
number of repeat plaintiffs and an even
smaller number of law firms.
California (re Same Attorney, Tanya Moore)
In Saniefar v. Ronald D. Moore, Tanya E.
Moore, et al., 1:17-cv-00823-LJO-BAM (Eastern Dist.
CA), the Honorable Lawrence J. O’Neill presided over
a case alleging that Attorney Moore, the same attorney
representing respondent Moralez, engaged in
Racketeering Influenced and Corrupt Organization
(RICO) activities in pursuit of over 1,400 ADA lawsuits
(dkt. 29 pp. 1-3). The Court found witness tampering
in ADA lawsuits filed by Mr. & Mrs. Moore. Judge
O’Neill stated his findings about the credibility of the
attorney witnesses at trial (transcript, dkt. 180, pp.
132-133):
THE COURT: You mean tampering?
MR. INOUYE: Witness tampering.
Wiretapping and witness tampering.
THE COURT: Well, I suppose I don’t
believe the two witnesses who testified?...
THE COURT: The two witnesses I’m
talking about, Mr. Moore and Mr.
Levinson, the two defendants.

33
MR. INOUYE: Absolutely, your honor.
THE COURT: Because I will tell you, I
think they both have terrible credibility
in this courtroom based on their
testimony.
[...]
THE COURT: Oh, I’m never pleased with
perjury.
[...]
THE COURT: Witness tampering is a
serious, serious matter in any case,
criminal or civil. And as a result of that,
this Court makes a finding that witness
tampering occurred by both the
defendants. And further, that the only
possible remedy that is of any value or
any justice here is a striking of the
Answers by each of the defendants, and
those Answers are stricken.
A news story summarizes the matter well:
Two defendants have been caught
tampering with a witness in a lawsuit
against a San Jose law firm that has
sued thousands of California small
businesses for minor accessibility
violations. A federal judge last month
determined that an attorney and a
compliance consultant linked to the

34
Mission Law Firm had illegally
eavesdropped on a phone call with a
witness and later coached him to act
dumb on the stand.
The Mission Law Firm, headed by
attorney Tanya Moore, has become
notorious for filing countless lawsuits
against small restaurants and shops,
including ones in Menlo Park and
Mountain View, for violations under the
federal Americans with Disabilities Act
(ADA).
The news story is posted at:
https://www.almanacnews.com/news/20
19/07/07/judge-finds-witness-tampering
-in-ada-lawsuit
Petitioner believes that most or all of wrongful acts
observed by the aforementioned federal courts
throughout the country, including those summarized
above, have taken place in the underlying case,
therefore this case well suited for grant of certiorari.
II.
ADOPTING CHAPMAN AS A NATIONAL
STANDARD WILL RESOLVE THE PROBLEM BY
REQUIRING ADA CLAIMANTS TO ESTABLISH
STANDING FOR EACH CLAIM ASSERTED
The Honorable Melinda Harmon identified the
problem: the abusive ADA filings proliferating around

35
the country have lead to a wide and varied spectrum of
judicial decisions addressing complex issues of, and
policies regarding, standing. The case at bar is such a
case. On one end of the spectrum, cases like Chapman
require the ADA plaintiff to plead and establish
standing for every ADA non-compliance item in order
to recover fees and costs. On the other end of the
spectrum are decisions such as the one rendered in
this case, holding that the plaintiff is not required to
plead and prove standing once the injunctive relief
portion of the suit has been resolved by stipulation.
Chapman resolves this problem by requiring the ADA
plaintiff to establish standing for every ADA noncompliance item:
Here, however, Chapman has failed to
allege and prove the required elements of
Article III standing to support his claim
for injunctive relief under the ADA.
Specifically, he has not alleged or proven
that he personally suffered discrimination as defined by the ADA as to
encountered barriers on account of his
disability.
We therefore vacate the
district court's grant of summary
judgment, and remand with instructions
to dismiss Chapman's ADA claim for lack
of jurisdiction and for further
proceedings consistent with this opinion.
Chapman v. Pier 1 Imports (U.S.) Inc.,
631 F.3d 939, 944 (9th Cir. 2011)
The Ninth Circuit Court of Appeals found that

36
Chapman failed to meet the requirements of Article III
standing:
Unlike in other cases where we have
found Article III standing, see, e.g., D'Lil,
538 F.3d at 1037, Chapman leaves the
federal court to guess which, if any, of the
alleged violations deprived him of the
same full and equal access that a person
who is not wheelchair bound would enjoy
when shopping at Pier One. Nor does he
identify how any of the alleged violations
threatens to deprive him of full and equal
access due to his disability if he were to
return to the Store, or how any of them
deter him from visiting the Store due to
his disability. Although Chapman may
establish standing as to unencountered
barriers related to his disability, the list
of barriers incorporated into his
complaint does nothing more than
"perform a wholesale audit of the
defendant's premises." Martinez v. Longs
Drug Stores, Inc., No. CIV-S-03-1843
DFL CMK, 2005 U.S. Dist. LEXIS 23737,
at *12 (E.D. Cal. Aug. 25, 2005).
Because Chapman lacked standing at the
outset of this litigation to assert the ADA
claims, the district court should have
dismissed them. See Fed. R. Civ. P.
12(b)(1); Hays, 515 U.S. at 747 (ordering
the district court to dismiss the

37
complaint for lack of standing). We
therefore vacate the district court's grant
of summary judgment, and remand with
instructions to dismiss Chapman's ADA
claim for lack of jurisdiction and for
further proceedings consistent with this
opinion. (Id. at 955.)
Had Chapman been applied, Plaintiff would have only
recovered fees and costs for her meritorious claims, but
not for her claims which had no merit. Approximately
17 percent of her claims (7/41) arguably had merit.
The Court would then have been able to adjust for her
heavily inflated claim for fees and costs, which the
Court has discretion to do under 42 U.S.C. 12205.
III. IMPOSING SANCTIONS FOR ASSERTION OF
NON-MERITORIOUS ADA CLAIMS EVEN AFTER
RESOLUTION OF THE INJUNCTIVE RELIEF
PORTION OF THE LAWSUIT
Certiorari should also be granted so the
Supreme Court can decide whether Rule 11 sanctions
may be recovered to deter assertions of nonmeritorious ADA non-compliance allegations, even
after the parties have resolved the injunctive relief
portion of the lawsuit. The case at bar illustrates the
problem. The Court stated rather strongly it’s opinion
that a defendant could not move for Rule 11 sanctions
against a “prevailing party” (Appendix C, p.18a):
But you already reached a settlement
agreement in the case and agreed that

38
she was the prevailing party. And now
you're threatening to sanction to her?
You're threatening to file a sanctions
motion against her for filing a lawsuit
that you've already agreed she was the
prevailing party in. I mean this is one of
the most bizarre things I have seen in my
five years on the bench.
The federal courts throughout the country are very
upset over the epidemic of abusive serial ADA filings
seeking fees for non-meritorious claims. Judge Huck
also observed that the serial filer in Johnson v. Ocaris
Mgmt. Group (supra) improperly shared attorney's fees
in violation of the Rules. This appears to be the case
in most or all of the serial ADA filer cases. In
California, the plaintiff is only entitled to $4,000 in
statutory damages under the Unruh Act. However, it
appears that the attorneys for the serial ADA filers
have fee-sharing arrangements with the plaintiffs to
motivate them to continue the abusive filings. The
only way these illicit partnerships will come to an end
is if the Courts allow, and even encourage, use of Rule
11 at all stages of the proceeding, especially in relation
to post-settlement fee motions. The law does not
contain any provision stating that the status of a ADA
plaintiff as a “prevailing party” means that the
plaintiff can get away with violation of the mandate of
truthfulness in Rule 11(b)(3).
Another problem now identified by the
underlying decisions is that federal courts often are
hesitant to award fees to the defendant for defending

39
against the non-meritorious portions of the serial ADA
filers.
As illustrated below, the courts often
understand the term “prevailing party” in ADA actions
to mean that the plaintiff is entitled to recovery of fees,
while the defendant is not entitled to recovery of fees
for successfully defending against non-meritorious
claims. As seen in the underlying case, the defendants
were successful on the ADA non-compliance items
which Ms. Moralez withdrew prior to settling the
injunctive relief portion of the suit, but they were not
able to recover fees for defending against those claims.
A decision by the Supreme Court, establishing that an
agreement by the parties resolving the injunctive relief
portion of an ADA suit does not immunize the ADA
plaintiff from Rule 11 sanctions for non-meritorious
claims she asserted, would provide a more balanced
and equitable result in serial ADA actions, where the
majority of the time the serial filers present a
significant number of non-meritorious claims to bolster
their attorney fee claims.
IV.
CERTIORARI SHOULD BE GRANTED TO
DETERMINE IF NINTH CIRCUIT RULE 39-1.6 IS
INVALID DUE TO EARLIER ISSUANCE OF THE
MANDATE
A mandate under Federal Rule of Appellate
Procedure 41(b) returns the case to the District Court
7 days after entry of the final order, and divests the
Courts of Appeals of jurisdiction:
(b) When Issued. The court's mandate
must issue 7 days after the time to file a

40
petition for rehearing expires, or 7 days
after entry of an order denying a timely
petition for panel rehearing, petition for
rehearing en banc, or motion for stay of
mandate, whichever is later. The court
may shorten or extend the time by order.
However, Ninth Circuit Court of Appeals, Circuit Rule
39-1.6, allows a party to file a motion for attorney’s
fees in the Court of Appeals, in the first instance,
seven days after the mandate is issued:
39-1.6. Request for Attorneys Fees
(a) Time Limits (Rev. 7/1/07)
Absent a statutory provision to the
contrary, a request for attorneys’ fees
shall be filed no later than 14 days after
the expiration of the period within which
a petition for rehearing may be filed,
unless a timely petition for rehearing is
filed. If a timely petition for rehearing is
filed, the request for attorneys fees shall
be filed no later than 14 days after the
Court’s disposition of the petition. (Rev.
12/1/09)
It appears Cir. R. 39-1.6 should be declared void
because the Court of Appeals loses jurisdiction once
the mandate is issued.
It also appears the Rule is unconstitutional

41
because the Court of Appeals decides the fee motion in
the first instance, depriving the aggrieved party of the
right to an appeal as a matter of right. This is
consistent with the holding in Perkins v. Standard Oil
Co., 399 U.S. 222, 223, 90 S. Ct. 1989, 1990:
The amount of the award for such
services should, as a general rule, be
fixed in the first instance by the District
Court, after hearing evidence as to the
extent and nature of the services
rendered.
The grant of certiorari should therefore extend to
determination of validity and constitutionality of
Ninth Circuit Rule 39-1.6.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Andrew W. Shalaby
Counsel for Petitioner
April 2021

